<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 116-45]
                
                  STATUS OF THE B61-12 LIFE EXTENSION 
                    AND W88 ALTERATION 370 PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 25, 2019

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-275 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                    SUBCOMMITTEE ON STRATEGIC FORCES

                    JIM COOPER, Tennessee, Chairman

SUSAN A. DAVIS, California           MICHAEL R. TURNER, Ohio
RICK LARSEN, Washington              JOE WILSON, South Carolina
JOHN GARAMENDI, California           ROB BISHOP, Utah
JACKIE SPEIER, California            MIKE ROGERS, Alabama
SETH MOULTON, Massachusetts          MO BROOKS, Alabama
SALUD O. CARBAJAL, California        BRADLEY BYRNE, Alabama
RO KHANNA, California                SCOTT DesJARLAIS, Tennessee
WILLIAM R. KEATING, Massachusetts    LIZ CHENEY, Wyoming
KENDRA S. HORN, Oklahoma, Vice 
    Chair
               Grant Schneider, Professional Staff Member
                Sarah Mineiro, Professional Staff Member
                           Zach Taylor, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Turner, Hon. Michael R., a Representative from Ohio, Ranking 
  Member, Subcommittee on Strategic Forces.......................     1

                               WITNESSES

Clark, Lt Gen Richard M., USAF, Deputy Chief of Staff for 
  Strategic Deterrence and Nuclear Integration, U.S. Air Force...     4
Verdon, Hon. Charles P., Deputy Administrator for Defense 
  Programs, National Nuclear Security Administration.............     2
Wolfe, VADM Johnny R., Jr., USN, Director, Strategic Systems 
  Programs, U.S. Navy............................................     5

                                APPENDIX

Prepared Statements:

    Clark, Lt Gen Richard M......................................    24
    Cooper, Hon. Jim, a Representative from Tennessee, Chairman, 
      Subcommittee on Strategic Forces...........................    17
    Verdon, Hon. Charles P.......................................    18
    Wolfe, VADM Johnny R., Jr....................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    35
    Mrs. Davis...................................................    36
    Mr. Garamendi................................................    38
    Ms. Horn.....................................................    39
    Mr. Larsen...................................................    37
    
.    
  STATUS OF THE B61-12 LIFE EXTENSION AND W88 ALTERATION 370 PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                     Washington, DC, Wednesday, September 25, 2019.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Jim Cooper 
(chairman of the subcommittee) presiding.
    Mr. Cooper. The subcommittee will come to order.
    I would like to welcome the witnesses, Dr. Verdon, General 
Clark, Admiral Wolfe.
    This is an important topic. I will dispense with my opening 
statement and ask unanimous consent that it be inserted for the 
record so that we can get to the witness testimony. We also 
planned a classified session after this, but we wanted to have 
as much of it in the public as we could.
    With that, I will yield to the distinguished ranking 
member.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 17.]

  STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE FROM 
     OHIO, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Thank you, Mr. Chairman.
    I would like to thank all the witnesses for being here 
today. You were here back in March and April; appreciate you 
stopping in to give us this update.
    The B61 and the W88 are both critically important programs 
in our Nation's nuclear modernization efforts. The B61-12 Mod 
12 Life Extension Program consolidates and replaces older B61 
that were first produced in 1968. Mod 12 will have advanced 
accuracy and produce less fallout compared to previous versions 
of the weapon. It is a necessary and prudent life extension and 
a programmatic delay. I continue to strongly support this 
program. As former president of the NATO [North Atlantic Treaty 
Organization] Parliamentary Assembly, I know the credible 
contributions the B61 currently makes to nuclear deterrence in 
Europe, and I will continue to support it.
    As I read in your submitted statement, the W88 Alt 
[Alteration] 370 is needed to replace the arming, fusing, and 
firing subsystems of the warhead, as well as refreshing the 
conventional high explosives in the warhead.
    While experiencing similar programmatic delays again, I 
strongly support this program and recognize the unique 
contributions our submarines provide our nuclear--as a nuclear 
deterrent.
    I look forward to hearing your testimony on the source of 
the problem and how to move forward in a responsible manner.
    And then I want to express my disappointment that we are 
even having this hearing. We have a longstanding tradition in 
our committee that we don't have hearings on--public hearings, 
especially, on issues that are being considered in conference. 
These issues are currently being negotiated in conference right 
now that affect these programs. We usually have intake hearings 
as we are preparing for the NDAA [National Defense 
Authorization Act], not as we are negotiating of the NDAA.
    But, nonetheless, the majority has decided to do this in a 
very public fashion. Again, our nuclear weapons and the issues 
affecting them--as the chairman said, we are going to be going 
into a classified session--could easily have been dealt with 
solely in the classified session. So the only reason why we 
must be in public is for there to have some difficult 
discussions about support for the nuclear deterrent that we 
have that is part of our Nation's security.
    I think this is a disappointment. It is continued 
politicization of the process of this committee that we have 
seen throughout this year, and I am eager to hear what the 
chairman considers as his questions that are so needed for him 
to bring forward in the public that we couldn't have just had 
in our discussion in our meeting that we are going to have 
afterwards.
    I yield back.
    Mr. Cooper. I appreciate the gentleman's eagerness.
    Let's start with the witness testimony.
    Dr. Verdon.

 STATEMENT OF HON. CHARLES P. VERDON, DEPUTY ADMINISTRATOR FOR 
   DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Dr. Verdon. Chairman Cooper, Ranking Member Turner, members 
of the subcommittee, thank you for the opportunity to testify 
on the status of the Department of Energy's National Nuclear 
Security Administration's B61-12 Life Extension and W88 
Alteration 370 programs.
    The U.S. nuclear deterrent continues to be the cornerstone 
of America's national security and global stability. It is 
imperative that we modernize all aspects of our nuclear 
deterrent, including delivery platforms, the warheads, the 
infrastructure required to deliver those warheads. And further, 
we need to hire and train and retain the workforce necessary to 
carry out these challenging tasks involved.
    These modernization activities ensure that the U.S. nuclear 
weapon stockpile continues to meet Department of Defense 
requirements while enhancing warhead safety and security. With 
the successful completion of the W76-1 Life Extension Program 
in December of 2018, NNSA [National Nuclear Security 
Administration] is currently executing five warhead 
modernization activities. Some aspects are common across these 
very complex activities; however, there are also many unique 
aspects due to their different delivery requirements.
    As with any complicated endeavor, unplanned technical 
challenges arise, as has been encountered on the B61-12 LEP 
[Life Extension Program] and the W88 Alt 370 associated with a 
limited number of electrical components.
    So first, let me--there are two main aspects of each 
warhead modernization activity. The first is we must identify a 
technically feasible design that meets the requirements set 
forth. The second is we must establish confidence that the 
design chosen will continue to meet those requirements and work 
reliably 20 to 30 years after production.
    Technical issues with some capacitors used in the B61-12 
and W88 Alt 370 were identified while gathering data to certify 
the reliability of these weapons for the required 20- to 30-
year stockpile life. Early tests on the capacitors now in 
question and subsequent tests, including component, major 
assembly, and full-up integrated system flight tests, 
demonstrated that these components meet requirements today.
    Industry best practices were used to stress the components 
beyond their design planned usage as a way of establishing 
confidence that they will continue to work over the necessary 
lifetime of the warhead. During stress testing, a few of these 
commercially available capacitors did not meet the reliability 
requirements.
    NNSA, in coordination with DOD [Department of Defense] and 
supported by a blue ribbon panel established by NNSA, whose 
memberships included representatives from the Air Force Nuclear 
Weapon Center, the Defense Microelectronics Activity, Naval 
Surface Warfare Center-Crane Division, Honeywell, Northrop 
Grumman, and Pennsylvania State University, advised in June 
2019 that the prudent approach was to accept the delay to these 
programs and replace these components, rather than risk 
component failure in the future years. These recommendations 
were accepted by NNSA at that time.
    Delays to the first production unit for both programs are 
approximately 18 to 20 months. NNSA is working with DOD to 
develop specific production schedules for the two programs in 
question. Initial operational capability dates and last 
production dates are being explored with the United States Air 
Force to meet their deployment needs and with the United States 
Navy to minimize impact of fleet operations.
    All other components unaffected by the capacitor issues are 
continuing with readiness and production activities on their 
original timelines to mitigate delays and impacts on other 
ongoing warhead modernization activities.
    Upon identification of these issues, NNSA initiated two 
internal reviews to identify cause and lessons to be learned. 
Both teams gathered information from interviews, site visits, 
and discussions with other organizations that undertake similar 
electronic component work.
    As a root cause, we identified that our methodology for the 
insertion of commercial off-the-shelf, or COTS, components into 
high reliability, long-life nuclear warheads needs to be 
improved. We are examining our process to identify improvements 
and actively working to mitigate such future risks. We are 
using the W80-4 LEP and the W87-1 modification program to 
incorporate these lessons learned to minimize the chance of 
future COTS-related risks.
    Progress is reviewed on a regular basis. And then be 
assured that my team and I are actively engaged in every aspect 
of the recovery process. Additionally, it is my responsibility 
to ensure that NNSA learn from what occurred in order to reduce 
the likelihood of reoccurrence during other ongoing warhead 
modernization activities.
    The efforts of our dedicated professionals across the 
nuclear security enterprise continue to drive progress towards 
our modernization milestones, and NNSA is an organization 
striving for continuous improvement.
    I look forward to continuing to work with Congress to 
sustain the nuclear deterrent for both near term and long term, 
a test that will require continued strong support of this 
committee for adequate and stable investments to support the 
scientific tools, capabilities, and infrastructure needed to 
maintain and modernize the stockpile.
    Again, I appreciate the opportunity to appear before the 
subcommittee, and I look forward to answering your questions.
    [The prepared statement of Dr. Verdon can be found in the 
Appendix on page 18.]
    Mr. Cooper. The gentleman, General Clark.

  STATEMENT OF LT GEN RICHARD M. CLARK, USAF, DEPUTY CHIEF OF 
 STAFF FOR STRATEGIC DETERRENCE AND NUCLEAR INTEGRATION, U.S. 
                           AIR FORCE

    General Clark. Good afternoon, Chairman Cooper, Ranking 
Member Turner, distinguished members of the subcommittee. Thank 
you for the opportunity to discuss modernization efforts for 
the B61-12 gravity bomb. It is an honor to present the Air 
Force before you today.
    The return of great power competition means the United 
States faces a more diverse and advanced nuclear threat 
environment than ever before. The 2018 Nuclear Posture Review 
highlighted that Russia has adopted military strategies and 
capabilities that rely on nuclear escalation for their success, 
which is a troubling doctrinal trend.
    Despite U.S. efforts to reduce the role of nuclear weapons 
in international affairs and negotiate reductions in the number 
of nuclear weapons, neither Russia nor China have reduced the 
role of nuclear weapons in their national security strategies 
or the number of nuclear weapons they field. Rather, they have 
moved decidedly in the opposite direction. Therefore, the 
United States must maintain a credible nuclear deterrent to 
ensure our ability to deter aggression, assure our allies and 
partners, hedge against uncertainties, and achieve U.S. 
objectives should deterrence fail.
    Modernization and recapitalization are paramount to 
maintaining a credible deterrent in the evolving strategic 
security environment. The 2018 Nuclear Posture Review calls for 
the Department of Defense and the Department of Energy to 
prioritize and fund their respective nuclear delivery systems 
and warhead programs for synchronized delivery. The B61-12 Life 
Extension Program and Tail Kit Assembly is one such effort, and 
ensures the B61 meets USSTRATCOM [United States Strategic 
Command] and NATO requirements well into the 21st century.
    NNSA has a crucial role to play as all three legs of the 
nuclear triad, as well as our forward-deployed nuclear forces, 
require the warheads it develops and sustains, and they are 
working diligently to deliver assured, reliable capabilities on 
time to the warfighter. As a result of their diligence, NNSA 
has identified an issue with capacitor components that did not 
meet reliability requirements, and consequently, the B61-12 
Life Extension Program and concurrent W88 Alteration 370 
program will not meet initial production date requirements. I 
am confident, however, that the capacitor issue will be 
satisfactorily resolved.
    The Air Force will continue synchronizing efforts with the 
Navy, NNSA, OSD [Office of the Secretary of Defense], and 
USSTRATCOM, working in lockstep with them through the Nuclear 
Weapons Council to understand and mitigate associated costs, 
near-term impacts to deployment, and any follow-on implications 
due to the delay, ensuring our nuclear modernization efforts 
support the nuclear triad, forward-deployed nuclear forces, and 
joint force requirements.
    The Air Force values the continued support of Congress and 
the Nation, and we are committed to providing the tools 
necessary to deter the most existential threat to America's 
survival. The flexible capabilities and complementary nature of 
the nuclear triad, forward-deployed nuclear forces, and 
associated weapons ensure the credibility of the U.S. 
deterrent, while complicating an adversary's decision calculus. 
Our nuclear weapons and nuclear deterrence are the backstop of 
U.S. national security and underwrite every diplomatic and 
military operation on the globe.
    We are committed to ensuring the successful modernization 
and recapitalization of these critical programs.
    Thank you again for allowing me to appear today, and I look 
forward to answering your questions.
    [The prepared statement of General Clark can be found in 
the Appendix on page 24.]
    Mr. Cooper. Thank you very much, General.
    Admiral.

    STATEMENT OF VADM JOHNNY R. WOLFE, JR., USN, DIRECTOR, 
             STRATEGIC SYSTEMS PROGRAMS, U.S. NAVY

    Admiral Wolfe. Chairman Cooper, Ranking Member Turner, and 
distinguished members of the subcommittee, thank you for this 
opportunity to discuss a vital refurbishment effort of our sea-
based leg of the triad. It is an honor to testify before you 
representing the Navy's Strategic Systems Programs, or SSP.
    Nuclear deterrence is the Department of Defense's number 
one priority mission. The Nation's nuclear triad of 
intercontinental ballistic missiles, strategic bombers, and 
ballistic missile submarines equipped with submarine-launched 
ballistic missiles is the bedrock of our ability to deter 
aggression, assure our allies and partners, achieve U.S. 
objectives should deterrence fail, and hedge against an 
uncertain future.
    Today's Ohio-class submarine and Trident II (D5) Strategic 
Weapon System together compose the sea-based leg of the 
deterrent. The Trident II (D5) missile is capable of carrying 
two different types of warheads, the W76 and the W88, both 
deployed in the late 1970s and 1980s, respectively. Over the 
last 20 years, the Navy and our partners at the Department of 
Energy's National Nuclear Security Administration, or NNSA, 
have executed efforts to refurbish these warheads to address 
aging and obsolescence.
    The W88 Alteration 370 refurbishing effort begun in 2008 
focused on procuring additional arming, fusing, and firing 
units, and replacing the system's high explosives, in 
conjunction with the routine replacement of discrete system 
components. Historical challenges had delayed the initial 
program production until December 2019, removing any schedule 
margin for the refurbishment effort.
    Recently during testing, NNSA identified an issue with 
capacitor components that did not meet reliability requirements 
and will not be available to this program in order to meet 
required production dates. The Navy and NNSA are planning for 
an approximately 18-month delay to the W88 Alt 370 program and 
are working to understand associated costs and the follow-on 
implications to our entire Trident II (D5) program of record.
    Concurrently, the Navy is working with USSTRATCOM to 
understand the near-term impacts to deployments and to ensure 
that the Navy can continue to meet USSTRATCOM requirements. I 
am confident that the Navy, NNSA, and the Nuclear Weapons 
Council will address this refurbishment challenge with mission-
focused attitude and rigor.
    Delays to warhead refurbishment programs are unfortunate, 
but they are a potential reality for which the Navy prepares. 
Issues associated with the W88 Alt 370 program highlight the 
critical importance of a robust, nuclear enterprise-wide suite 
of skilled workforce professionals, rigorous processes, and a 
healthy manufacturing and industrial base.
    Now, more than ever, the Navy needs the continued support 
of Congress and the Nation as the Navy, NNSA, the Air Force, 
and the Nuke Weapons Council work together to manage this delay 
and to plan future warhead work across the enterprise.
    Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Wolfe can be found in 
the Appendix on page 29.]
    Mr. Cooper. Thank you, Admiral.
    And thanks to all the witnesses for your excellent 
testimony.
    The purpose of this hearing today is just to watch over 
taxpayer dollars because we have an obligation as stewards of 
taxpayer money to make sure that it is properly spent. And any 
time there is a delay or cost overrun, I think it is worthy of 
note. These are vitally important programs for America, but 
there are no sacred cows, so we need to make sure that 18-
month, 2-year delays, cost overruns, can be better understood 
so they can be avoided in the future.
    It is completely unrelated to this hearing today, but just 
this morning we were told there is a Federal court decision in 
Tennessee which is delaying the UPF [Uranium Processing 
Facility] facility, which is one of the most expensive 
buildings ever built, $6.5 billion, because the environmental 
paperwork wasn't done properly. That is amazing.
    Can any of the witnesses tell me about the approximate cost 
of these capacitors that are delaying the life extension 
programs of these vitally important warheads?
    Dr. Verdon. Yes, sir. The original capacitors, the ones in 
question, were basically around $5 per part. Their replacement 
capacitors, which are built to now a new standard that wasn't--
that did not exist at the time the original capacitors were 
procured, are more like $75 per part, because they are built to 
a much more rigorous standard.
    Mr. Cooper. So that is the cost of replacing the technical 
component that could have failed in a stress test?
    Dr. Verdon. Right.
    Mr. Cooper. Now, the overall cost of these delays is 
approximately what?
    Dr. Verdon. So for the B61, early estimates right now, we 
are still working it, but our estimates right now for the B61-
12 will be $600 to $700 million, and for the W88 Alt 370, the 
NNSA costs will be around $120 to $150 million.
    Mr. Cooper. So in rough figures, due to the defect of a 
component that costs less than $100, taxpayers will face extra 
charges on the order of close to a billion dollars?
    Dr. Verdon. But it is our plan to address that by basically 
balancing the workload within our modernization portfolio. As 
part of our lessons learned from this activity, we have already 
undertaken design simplifications on the 80-4 and the W87-1 
that will allow us to, in the out-years, to move money that was 
originally allocated for those activities to the B61-12 and the 
W88 Alt 370. And then using the contingency and management 
reserve that are currently in those programs, that is going to 
be our approach, is not to request any increase to the bottom 
line for the modernization effort, but to balance within the 
modernization portfolio.
    Mr. Cooper. So in exchange for spending the extra billion 
dollars right now, we may be able to find another billion 
somewhere so there would be no net extra cost to the taxpayer?
    Dr. Verdon. That is our objective and our goal, and we are 
working hard towards that.
    Mr. Cooper. And we would know the answer to that question 
in what year?
    Dr. Verdon. Hopefully, very shortly in terms of our ability 
to meet that. I would say it is probably within a year that we 
would have a good idea whether we will be able to do that. 
There is no increase needed in 2020, so it is really--the first 
time we would need increased funding would be in fiscal year 
2021.
    Mr. Cooper. I very much hope your prediction comes true. 
That would be wonderful.
    Dr. Verdon. That is certainly our focused goal to achieve 
that.
    Mr. Cooper. And you would be willing to come back within a 
year's time and help us understand that?
    Dr. Verdon. Certainly. Yes, sir.
    Mr. Cooper. We like accountability. That is a good thing. I 
have no more questions right now.
    The ranking member?
    Mr. Turner. I yield my time to Joe Wilson.
    Mr. Wilson. Thank you, Ranking Member Mike Turner.
    Dr. Verdon, I appreciate your service with the National 
Nuclear Security Administration, NNSA. Your statement, ``the 
United States nuclear capabilities continue to be the 
cornerstone of America's national security and global 
stability, and serve as the ultimate deterrent against a 
nuclear attack,'' is important as we look at deterrence within 
the nuclear power competition context.
    The overall age of our nuclear deterrent capabilities is a 
weakness in the strategic triad. The U.S. nuclear weapons are 
surpassing their intended service lives, as has been discussed. 
The Nuclear Posture Review addressed the importance of 
modernizing our plutonium pits, including 80 pits at 2 sites 
per year by 2030.
    Do you agree that in order to modernize our nuclear 
capabilities, NNSA should comply with the Nuclear Posture 
Review and increase capacity across two sites to modernize 
plutonium pits? What delays in plutonium pit production impact 
service life extension programs?
    Dr. Verdon. So I do agree that the 2-site solution of 80 
pits per year by 2030 is a prudent approach to managing the 
stockpile going forward. And delays in that, yes, in my mind 
will add risks to the long-term viability of the stockpile.
    Mr. Wilson. Additionally, the program delays for B61 and 
W88 have been costly and led to significant lessons learned. I 
have supported the requirement of 80 plutonium pits per year at 
2 sites, which has a strict timeline that I have been assured 
can be attainable.
    How will the NNSA consider the reports from the cost 
estimating and programs evaluation for future service life 
extension programs and ensure these problems do not continue 
with future service life extension programs and plutonium pit 
production?
    Dr. Verdon. As I mentioned, we are a learning organization 
and we have--as soon as this occurred, we instituted a lessons 
team to go find the causes of this, and then we are applying 
those lessons now to the other systems to minimize the chance 
of this reoccurrence. And so we have revamped and changed how 
we approached the work on these systems already, on the newer 
systems, to learn from what occurred. And that is what a good, 
you know, learning organization does, is they will make 
changes. They utilize what has worked and they change what had 
issues, and that is what we are doing right now.
    Mr. Wilson. That is very encouraging. And I look forward to 
continue working with you, in particular, the two-site 
solution, the Savannah River Site and Los Alamos. I think it is 
just so important to have two sites to reach the goals that 
should be attained.
    And General Clark, the B61 is consolidating four of five 
variants of the B61. How do our NATO partners view the 
necessity of this life extension and consolidation? What are 
the impacts to the operational Air Force units of not 
successfully executing this life extension?
    General Clark. Sir, thank you for the question. Our NATO 
partners view the B61-12 very favorably, especially as we take 
the aspects of safe, secure, and reliable components and 
consolidate that in the B61-12 and enhance those features. So 
that gives us a better weapon set. It allows us the operational 
requirements also that our combatant commanders as well as our 
NATO partners require from that weapon. As was discussed 
earlier, it is a more capable system.
    But, really, it boils down to the safety, security, and 
reliability. And by consolidating that into a single weapon, it 
is much more manageable, it is much improved, and it 
simplifies, I think, our maintenance and the sustainability of 
that program out into the future.
    Mr. Wilson. Thank you for your very clear explanation of 
these very complicated issues.
    And now we throw it, of course, to Admiral Wolfe. What is 
the operational impact of the W88 delay to the fleet's ability 
to meet STRATCOM at-sea requirements?
    Admiral Wolfe. Thank you for the question, sir. So as we 
work with USSTRATCOM, we are looking at mitigation strategies. 
Obviously, this delay is going to cause us to have to look at 
how we re-plan, both how we turn around the stockpile. And what 
I mean by turn around the stockpile is how we now re-plan to 
get these weapons back to Pantex when they are ready and NNSA 
is ready, and then get them back out to the fleet.
    I would be happy in the closed session to go into a little 
bit more detail about what that means. We will have STRATCOM as 
well and we will be able to walk you through the implications 
of that. But currently today, based on what we are doing with 
STRATCOM, we will meet the requirements as we move forward.
    Mr. Wilson. Thank you.
    And one final for Dr. Verdon. You stated that more than 
half of the National Nuclear Security Agency's facilities 
across the nuclear security enterprise date back to the 
Manhattan Project. Please speak to the impacts of the NNSA's 
aging infrastructure and how it serves as an obstacle to the 
life extension programs to the B61-12 and W88 Alterations.
    Dr. Verdon. So the risk occurs with any of the potential 
failure in those older buildings. While those sites that have 
the buildings on them work, do heroic efforts to keep them 
functioning, we do know and have tracked increased maintenance 
costs on them. And if we were to lose some of those facilities, 
it will immediately impact both the sustainment of the present 
stockpile as well as delivery of future--of the modernization 
warheads that the DOD is requiring.
    Mr. Wilson. I thank each of you for being here today.
    I am happy to yield back to Chairman Cooper.
    Mr. Cooper. I thank the gentleman from South Carolina.
    The gentlelady from Oklahoma is recognized.
    Ms. Horn. Thank you, Mr. Chairman. And thank you to all of 
you for your testimony today.
    Dr. Verdon, I would like to follow up on a few questions 
helping us to understand this in your testimony, discussing the 
critical cornerstone that is our Nation's nuclear arsenal and 
our national security. So wanting to follow up, understanding 
that there will be delays due to technical failures, as is the 
nature of these challenges, can you speak to what lessons that 
you have learned during these delayed programs that we can take 
into the future to address that issue?
    Dr. Verdon. Certainly, glad to address that. Yes. One of 
the key lessons we learned, we always had a mixture when we 
were working on our warheads, even back during the Cold War, 
where 30 percent of our components--these components were made 
from components off-the-shelf, COTS technology. Now it is 
moved--so it used to be 30 percent outside, 70 percent inside. 
Now we have moved more to 70 percent outside and 30 percent 
inside.
    And what we did not recognize, and one of the lessons we 
learned, is the variability that can exist even within a given 
vendor just between different lots. Different lots. So when you 
buy the components, if you get different lots of them, there 
can be variability in how they are produced. That is something 
that we underestimated, but we are learning that. You know, we 
have learned that now already, and have changed how we are 
going to procure the parts and how we are going to test the 
parts. We are going to be more rigorously testing the parts 
earlier on in the process so that if there is an issue, we can 
uncover it sooner. So that is one of the key lessons learned.
    And then we even identified some organizational 
improvements so that we have to be able to flow up information 
more quickly to respond to. So there is--it has been across the 
board that we have identified the major cause, I would say, is 
our underestimation of the variability between lots.
    But then we had a lot of what I will say contributing 
causes--or not a lot--a number of contributing causes that we 
are also addressing that will improve the flow of information 
so that we can respond even quicker when we do uncover these 
types of technical issues, which are, as you mentioned, are 
inevitable in these types of programs.
    Ms. Horn. Thank you.
    And following up, I want to ask, and then this can be for 
all three of you, your sense of addressing these critical 
issues that impact our national security and knowing that we 
are moving forward. What role can Congress play to help 
mitigate the delays of these weapon systems and identifying 
these potential pitfalls sooner? What do you need from us?
    Admiral Wolfe. Yes, ma'am. Thank you for the question. So I 
would submit, just as a general program manager, as we continue 
to develop and look at how we build these systems, pushing 
everything as far to the right as we do until we take all of 
our margin away, and being able to get some of that learning 
and actually make a turn in time so that we don't find ourself 
in situations like this. That is incredibly important.
    And as I said in my opening statement, if you look at the 
age of these systems and the technology that we are using, 
these are tough, tough issues to solve. And it is critical 
technology that we are learning as we modernize these. So 
anything that Congress can do to help us keep the funding on 
schedule and on the timelines that we have requested helps us 
get that testing done earlier and identify these so we don't 
find ourself having to do some of these last-minute turns, 
which kind of put us in these situations.
    General Clark. Ma'am, I think I would certainly second 
Admiral Wolfe's sentiments on that. Last minute, if you will, 
recapitalization of modernization does put us in a box. The 
other thing that I would add, though, is that the support for 
NNSA, for our labs, for our production facilities, and to 
ensure that they have the manpower and the expertise, not only 
for now, but into the future, to ensure that the production, 
the design, modernization of these weapons is consistent, and 
that we can carry it out into the future.
    Given the strategic environment that we are in, it is a 
capacity and a capability that we have to have. And I know I 
can speak for Admiral Wolfe and the Navy, but we in the Air 
Force as well rely--I can't even stress how important our 
reliance is on NNSA and the Department of Energy. So support 
for our brothers and sisters in the Department of Energy is 
critical.
    Ms. Horn. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cooper. I thank the gentlelady.
    The gentleman from Tennessee is recognized.
    No questions? Okay.
    Are there any other questions for this panel then?
    Oh, Mr. Lamborn, our auxiliary member. I ask unanimous 
consent that he be able to ask questions.
    Mr. Lamborn. And thank you, Mr. Chairman, and committee.
    Just a couple of quick questions. Thank you all for being 
here. Thank you, Mr. Chairman, for having this hearing.
    At this point, given the delays in the 61 and 88, does it 
make sense to make all of the non-nuclear components in-house? 
You said 70 percent, but what about 100 percent?
    Dr. Verdon. So that is also a lesson we are taking to look 
at examining that more closely. What we have come to the 
conclusion of, though, is we are going to be evaluating it on a 
part-by-part basis, if you like. What we are finding is that, 
also one of the lessons learned, is we are improving our 
interactions with the vendors themselves. We are trying to make 
sure that the vendors understand our requirements very early in 
the process as we even begin to engage them so they can tell us 
whether they think they can meet our requirements or not.
    In some cases, the vendors want to work with us and will 
actually improve their processes to actually meet our 
requirements. So we are going to look at it on a part-by-part 
basis. And for those parts that the vendors would have a hard 
time meeting, we would look at those to bring back in-house. 
For those that the vendors can meet and then we test that they 
can meet, we will gladly stay with the process that we are 
using right now.
    So we are going to try to take a measured approach to that. 
You know, it is an excellent question; it is one that we have 
been asking ourselves quite a bit.
    Mr. Lamborn. Okay. Thank you. And apparently, a lot of the 
non-nuclear component production is done in Kansas City. What 
are the bottlenecks there, and what are you doing to fix it? I 
know you partially answered that already.
    Dr. Verdon. Yes, sir. In Kansas City, what we are finding, 
actually, is floor space and manpower has been bottlenecks. We 
are actively working right now to get them some additional 
floor space. They are hiring. They are doing a great job hiring 
their workforce. The site is doing an excellent job at that. We 
are working to get them additional floor space and the 
equipment that they need to enable to do the workload, the 
increased workload, that they are seeing. So we are working 
together to give them the extra capacity that they need.
    Mr. Lamborn. Thank you. And you mentioned--my last 
question. You mentioned the workforce. How important is it that 
we in Congress stay up to date with funding for you so that the 
industrial base stays intact and the workforce stays as much up 
to date as possible?
    Dr. Verdon. As was mentioned, I think the funding, the 
stability of the funding, the adequacy of the funding is 
critical because that is what can actually send--you know, the 
complex comes to a halt if the funding is, you know, not 
adequate or it is not predictable. We have to sometimes slow 
down. That is what does cause us issues. So that if it is 
stable and predictable, then the sites can plan for the future, 
which they have to when it comes to workforce, and so it is 
actually very critical that we have that.
    Mr. Lamborn. Okay. Thank you.
    Mr. Chairman, I yield back.
    Mr. Cooper. I thank the gentleman from Colorado.
    Any other questions from the subcommittee before we go into 
closed session?
    Looks like there are none.
    So why don't we recess and go into closed session in the 
SCIF [Sensitive Compartmented Information Facility].
    Thank you.
    [Whereupon, at 2:35 p.m., the subcommittee proceeded in 
closed session.]

    
=======================================================================

                             A P P E N D I X

                           September 25, 2019

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 25, 2019

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 25, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. COOPER

    Mr. Cooper. You noted in your testimony that NNSA is working to 
identify design simplifications in future warhead programs that may 
have on the order of $1 billion dollars in cost savings. Had the delays 
in the B61-12 and the W88 not occurred, would these design 
simplifications in the W80-4 and the W87-1 still have been pursued by 
NNSA? What are the specific design simplifications that will save $1 
billion?Are the future modifications, alterations, and LEPs overfunded 
if $1 billion can so easily be found within them? When will NNSA 
formally provide Congress with this updated cost information?
    Dr. Verdon. NNSA will attempt to balance the funding across all on-
going weapon modernization activities to address B61-12 LEP and W88 Alt 
370 funding needs. This approach will be challenging. NNSA is working 
to do this by utilizing remaining contingency and management reserve 
within the B61-12 LEP and W88 Alt 370 programs, and by applying lessons 
learned from these programs to reevaluate other on-going warhead 
activities for the potential of cost avoidance. The W80-4 LEP is 
already in Phase 6.3 so NNSA is looking at design/component 
simplification. The W87-1 Modification Program is in Phase 6.2 so NNSA, 
in coordination with the Department of Defense, is exploring both scope 
reductions (a normal part of the process in Phase 6.2) and design 
simplifications. Since no additional funding is required for the B61-12 
LEP and W88 Alt 370 in Fiscal Year (FY) 2020, NNSA is working to 
understand our ability to carry out this approach in time for FY 2021 
funding discussions.
    Mr. Cooper. How will NNSA determine the extent to which the 
programs have sufficient contingency, given it is clear that neither 
the B61-12 nor W88 ALT 370 had sufficient contingency?
    Dr. Verdon. NNSA provided contingency for both of these two 
programs at the start of each of their respective Phase 6.3 based on 
DOE/NNSA policy as informed by the DOE Office of Project Management and 
Oversight Assessment and Government Accountability Office best practice 
standards. As with any program of this complexity, contingency is 
utilized through the life of the program to address both previously 
assessed risks and unplanned realized risks.
    The W80-4 Weapons Design Cost Report (WDCR) is very comprehensive, 
includes federal contingency, and is in close agreement with the Office 
of Cost Estimating and Program Evaluation's (CEPE) Independent Cost 
Estimate (ICE). While the program includes an estimate of contingency, 
CEPE's ICE utilizes historical actual data where contingency has been 
realized in principle. The W87-1 WDCR will follow the same 
comprehensive estimating process and, in accordance with NNSA's 
policies, will be reconciled with CEPE's independent estimate.
    Mr. Cooper. You noted in your testimony that some organizational 
improvements have been identified as a result of the delays. Please 
specify, in detail, the identified improvements and a timeline for 
implementation.
    Dr. Verdon. In October 2019, NNSA's Office of Defense Programs 
instituted a reorganization and realignment to account for the 
increased workload of future LEPs and to adjust for the W88 ALT 370 and 
B61-12 LEP schedule slips. To meet these challenges, this 
reorganization: Consolidates and manages all legacy and future weapons 
efforts under a single office; Realigns strategic materials and 
component production modernization efforts; Increases focus on 
production and integration of production efforts across the enterprise; 
Aligns technology maturation initiatives with research, development, 
test, and evaluation efforts under a single office.
    Organizational changes are also being made at the relevant 
Management and Operating (M&O) contractors' sites. The federal program 
management team is being augmented with the addition of federally-led 
Integrated Product Teams focused on improving coordination and 
communications, both between the numerous M&O-led Product Realization 
Teams and up to federal program leadership. The M&O organizational 
changes are the responsibility of the individual sites, but are 
informed by the lessons uncovered by the NNSA review teams.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DAVIS
    Mrs. Davis. Dr. Verdon, numerous reviews and assessments have been 
and are being conducted on NNSA's governance model. Recent reviews have 
noted the lack of clarity in roles and responsibilities within the 
enterprise, considering the cost and schedule delays of the B61-12 and 
the W88 ALT 370 programs, does NNSA plan to evaluate how to improve and 
clarify the roles and responsibilities within the enterprise? If NNSA 
is not planning to evaluate how to make improvements to these areas, 
please explain why in detail.
    Dr. Verdon. In May 2019, NNSA released three strategic documents, 
which serve as the guiding principles for how NNSA does business. 
Collectively, these three documents, Strategic Vision, Strategic 
Integrated Roadmap, and Governance and Management Framework, set the 
stage for realizing the cultural changes necessary to ensure that NNSA 
continues to demonstrate excellence and is responsive to the nation's 
nuclear security and strategic defense needs now and into the future. 
These documents set the expectation that NNSA execute its mission based 
on clearly defined roles, responsibilities, authorities, and 
accountability, and work with single purpose through more effective 
teaming and improved mission integration. Clearly defined roles and 
responsibilities coupled with effective integration of operations drive 
collaboration, teamwork, communication, and efficiency across the 
nuclear security enterprise, resulting in peak performance and mission 
execution.
    With respect to the B61-12 and W88 Alt 370, NNSA's Office of 
Defense Programs formed two teams to examine and document root causes 
and lessons from these delays. These teams determined that clarity 
regarding roles and responsibilities between the organizations involved 
was not a major factor. The respective organizations already had and 
continue to have an understanding of their roles and responsibilities. 
The teams identified that a more important contributing factor was how 
those roles and responsibilities were being executed, as well as the 
integration between the respective sites, Management and Operating 
(M&O) contractors, and federal program managers. NNSA is working with 
our M&Os to improve this integration.
    Mrs. Davis. Dr. Verdon, the NNSA Act provides the Deputy 
Administrator with specific authority for ``directing, managing, and 
overseeing the nuclear weapons production facilities and the national 
security laboratories.'' However, the field offices and many other 
critical support functions such as infrastructure, operations, and 
acquisition--which are necessary for delivering programs within their 
original performance baseline--reside outside of the Deputy 
Administrator's organizational purview.
    Please specify, in detail, how you ensure each of the following 
mission support functions are integrated to meet the strategic 
direction of the Deputy Administrator: Field Offices; Infrastructure, 
Operations, and Safety, and Health; Acquisition and Project Management. 
Have any of the planned organizational and program changes, brought on 
by the delays, been formally approved by the Administrator?
    Dr. Verdon. For major activities such as warhead modernization 
programs, NNSA works to ensure integration through both documented 
plans and frequent ``face-to-face'' meetings. This provides each 
relevant organization the information they need to enable the success 
of the program in question. The documented plans (and any changes to 
the plans) are coordinated between all relevant NNSA organizations and 
M&O contractors. Face-to-face meetings occur at all levels and 
frequency depending on need. For example, sites hold daily meetings to 
ensure workforce understanding of the activities planned for that day 
at that site. Leadership of the sites and Federal Managers hold weekly 
meetings at minimum to ensure that all sites understand what is ongoing 
and planned, and to ensure dependencies between each site are 
addressed. Quarterly, there is a day-long in-depth review of each 
project to provide further communication between all involved. 
Organizational changes are being made at the M&O partner sites, while 
the federal program management team is also being augmented with the 
addition of federally-led Integrated Product Teams. These teams are 
focused on improving coordination and communications between the 
numerous M&O lead Product Realization Teams and federal program 
leadership.
    Mrs. Davis. Dr. Verdon, what, if any, modifications need to occur 
with respect to how NNSA manages technology and manufacturing maturing 
and readiness in light of the delays?
    Dr. Verdon. One of the key lessons NNSA has learned from our review 
of the delays is the need to modify our manufacturing and technology 
readiness. NNSA is putting into place a number of changes to minimize 
the chance of recurrence of the issue encountered with these two 
programs in the future. For example, three changes being implemented 
are:
    1) NNSA has consolidated all technology and manufacturing 
readiness/maturations efforts (TRLs and MRLs), outside of specific 
weapons program modernization activities, under one program office. 
These activities had previously been distributed among a number of 
organizations. This consolidation enables a more strategic and 
integrated approach.
    2) For any new technology and/or components proposed for use in a 
warhead modernization activity, NNSA has moved the assessment that 
decides if the use of new technology will be supported to earlier in 
the 6.X process, prior to entering Phase 6.2. We have also increased 
the level of assessment needed. Of course, NNSA recognizes that in some 
cases a new technology might offer some significant potential benefits, 
and on a case-by-case basis the use of new technology will be 
supported, but risk mitigations must be identified and pursued in 
parallel.
    3) NNSA has implemented more rigorous and frequent independent 
assessments of technology and manufacturing readiness levels to assess 
the progress of key components and to provide an additional indicator 
as to whether TRLs or MRLs are falling behind their needed dates for 
use, so that corrective actions can be taken in a timely manner.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. If NNSA plans to shift contingency from the W80-4 and 
W87-1 to the B61-12/W88 Alt 370, will this shift be commensurate with 
the planned simplifications of these programs designs? What are the 
current contingency amounts for the W80-4 and the W87-1?
    Dr. Verdon. NNSA will attempt to balance the funding across all on-
going weapon modernization activities to address B61-12 LEP and W88 Alt 
370 funding needs. This will not be done by shifting contingency from 
the W80-4 LEP or W87-1 Modification Program. NNSA plans to do this by 
utilizing contingency and management reserve within the B61-12 LEP and 
W88 Alt 370 and by applying lessons from both to reevaluate other 
ongoing warhead activities for the potential of cost avoidance through 
design/component simplifications and scope reductions. The W80-4 LEP is 
already in Phase 6.3; therefore, NNSA is looking at design/component 
simplification for that program. The W87-1 Modification Program is in 
Phase 6.2, so NNSA, in coordination with the Department of Defense, is 
exploring both design simplifications and scope reductions-- a normal 
part of Phase 6.2. Since no additional funding is needed for the B61-12 
LEP and W88 Alt 370 in Fiscal Year (FY) 2020, NNSA intends to have 
additional details on the potential cost avoidance that can be 
identified in the W80-4 LEP and W87-1 Modification Program in time to 
inform FY 2021 budget/funding discussions.
    The FY 2020 contingency for the W80-4 is $20 million, which is 2.2% 
of the FY 2020 budget. The W87-1 is in early development stage and has 
not established a baseline. Therefore, no contingency reserve is 
allocated.
    Mr. Larsen. Within the NNSA enterprise, who is responsible for 
deciding when specific tests, such as the tests that identified the 
issues causing delays, are done on warhead components?
    Dr. Verdon. It is the responsibility of the design laboratory of 
the component in question working with the relevant production site to 
identify what and when tests are needed to provide the underpinning 
evidence that components meet requirements.
    Mr. Larsen. When were you and the Administrator made aware of 
potential issues with the capacitors?
    Dr. Verdon. The technical issue with the parts in question was 
confirmed in April 2019, but the full extent and impact was still under 
investigation at that time. In June 2019, the full extent, path forward 
to fix, and potential impacts to the B61-12 LEP and W88 Alt 370 
delivery timelines were identified.
    In 2014, the components in question were identified for use in both 
systems. Between 2014 and 2018, testing of the components did not show 
failures. However, in December 2018, NNSA was informed of the first 
reported failure of one of the capacitors in question. The initial 
failure occurred in December 2018 under extended life testing by a 
testing vendor utilized by the Kanas City National Security Campus. 
Between February 2019 and April 2019, Sandia National Laboratories 
repeated those tests, confirming the failure, and conducted numerous 
other tests to understand the extent of the issues. The full extent of 
the issues, the path forward to fix the issues, and the potential 
impacts to warhead delivery timelines were not established until June 
2019.
    The Administrator and I were formally notified in April 2019 that 
the Sandia testing verified the single failure seen previously. We were 
again formally notified in June 2019 as to the extent, the path forward 
to address the issues found, and the resulting delays to the two 
programs. NNSA personnel, along with personnel from the Air Force and 
Navy were involved throughout the process. In May 2019, NNSA notified 
Congress that technical issues were encountered on the B61-12 LEP and 
the W88 Alt 370 that could result in delays, but the full extent was 
not known at that time. Since then, in August 2019, NNSA provided an 
update to Congress as information became available regarding First 
Production Unit dates, resulting warhead delivery dates, and a first 
estimate as to the cost impacts due to these delays. NNSA will continue 
to provide updates to Congress during quarterly program reviews of 
these programs.
    Mr. Larsen. What additional costs will there be to the Air Force 
due to the delay in B61-12 First Production Unit and when will the 
Congress be formally notified of any additional costs? Will the delays 
affect delivery of the warheads to NATO? If so, how?
    General Clark. There are no additional costs to the Air Force due 
to the delay. All costs are incurred by the National Nuclear Security 
Administration (NNSA). The delays resulted in a slip in First 
Production Unit schedules which will affect delivery of the warheads to 
both United States Strategic Command (USSTRATCOM) and United States 
European Command (USEUCOM). However, the Air Force has coordinated with 
NNSA, USSTRATCOM, and USEUCOM to adjust B61-12 deployment.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Are the Navy and NNSA considering a new warhead 
design for the Next Navy Warhead?
    Dr. Verdon. The detailed requirements for a Next Navy Warhead are 
still in development within the Department of Defense. It is too early 
in the process to provide any details regarding what type of warhead 
will be required to meet U.S. Strategic Command and U.S. Navy needs.
    Mr. Garamendi. NNSA has identified a need to hire additional FTEs 
with federal program management expertise in the Office of Defense 
Programs and in other critical mission support areas. Please specify 
how NNSA is making full use of its current Excepted Service authorities 
to hire additional Federal program management expertise. Would 
additional federal FTEs decrease risk of delays and cost overruns 
within LEP programs?
    Dr. Verdon. NNSA has continued to hire additional FTEs within the 
Office of Defense Programs and in other mission support areas at the 
request of hiring managers by utilizing our Excepted Service (EN) 
appointing authority.
    In Fiscal Year (FY) 2019, NNSA filled 99 positions externally under 
the EN authority. Out of our allocation of 600 authorized EN FTE, NNSA 
is currently at 597. To continue leveraging the EN appointing 
authority, NNSA balances the start date of new EN employees with Agency 
separation dates for departing or retiring EN employees. NNSA provided 
technical assistance drafting legislative language to remove the 
statutory cap on NNSA's EN authority so that it can be used to hire the 
program management professionals needed to manage the programs.
    As part of the root cause analysis and lessons learned from this 
delay, NNSA's Office of Defense Programs identified the need for 
additional federal project management and oversight staff on each of 
the respective weapons modernization programs. This need for additional 
federal FTEs in the Office of Defense Programs is consistent with two 
independent staffing studies conducted by the Office of Personnel 
Management (OPM) and NNSA's Office of Cost Estimating and Program 
Evaluation. NNSA is actively recruiting to fill these positions.
    Mr. Garamendi. Are the Navy and NNSA considering a new warhead 
design for the Next Navy Warhead?
    Admiral Wolfe. At this time, the Navy and NNSA are considering 
warhead designs for the Next Navy Warhead that will leverage existing 
proven design elements (i.e., designs that have undergone underground 
testing).
    Mr. Garamendi. What additional costs will there be to the Navy due 
to the delay in the W88 Alt 370 and when will the Congress be formally 
notified of any additional costs?
    Admiral Wolfe. The Navy and NNSA are continuing to evaluate the 
budgetary implications of an anticipated 19-month delay due to 
capacitor issues. At this time, we are assessing how the delay may 
potentially increase Navy-funded workload at NNSA and our national 
laboratory partners and as well as additional costs related to limited 
life component exchanges and surveillance support. The Navy will 
continue to work with the DOD within the resource allocation process as 
we assess the potential impacts of the delay. Should the impacts 
require assistance outside the normal process, the Department will 
properly notify Congress.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. HORN
    Ms. Horn. Dr. Verdon, how will working on the ongoing programs for 
longer at Kansas City affect workload at Pantex and delay start to W80-
4 (and potentially W87-1) at Kansas City?
    Dr. Verdon. NNSA has identified a path forward to rebalance work at 
Pantex due to this delay. NNSA continues to assess the impacts of the 
delays in the B61-12 LEP and W88 Alt 370 on the W80-4 LEP and W87-1 
Modification Program. Once this assessment is completed, NNSA will 
inform stakeholders of the results and will identify any impacts to 
other ongoing warhead modernization activities.
    Ms. Horn. Dr. Verdon, you note in your testimony that NNSA has 
moved to procuring around 70% of warhead components from commercial 
vendors. Given recent issues, have NNSA's assumptions about the use of 
COTs changed for future warhead programs? If so, how would this affect 
floor space and other needs at Kansas City? Would infrastructure and 
production support costs increase? Also, at the time that NNSA shifted 
its strategy to purchase more COTS, what additional steps did it take 
to ensure the quality of purchased components? Describe in detail how 
these steps have been found now to be insufficient.
    Dr. Verdon. NNSA has determined that the use of COTs is still a 
viable approach for our weapons modernization programs, but requires a 
modification to the approach for implementation that existed at the 
start of the B61-12 LEP and W88 Alt 370. As part of the lessons learned 
from the B61-12 LEP and W88 Alt 370, NNSA is modifying our approach to 
the continued use of COTs in weapon warhead modernization programs. 
These changes include: Earlier and more frequent interactions with the 
vendors to ensure they understand NNSA's requirements for the use of 
their components and NNSA understands their ability to provide the 
parts to meet our requirements. On a case-by-case basis, if no vendor 
can be identified to provide the needed parts/component, design 
requirements cannot be reasonably altered to accommodate available 
commercial parts, and NNSA is not able to support or establish 
commercial sources of supply, then NNSA will bring the production of 
those components in-house. Increased and earlier testing of purchased 
COTs parts to ensure requirements are being met and lot-to-lot 
variations are assessed. Development of an approved COTs parts/vendor 
catalog with the requirement that if a previously approved vendor/part 
was shown to meet requirements it will be used in new applications. 
Further, if the design or production site wants to use a new component 
for ostensibly the same application, the justification for this will 
need to be reviewed. Since the original time of the selection of the 
parts now in question (2014), improved Military Performance Standards 
have been established that help to ensure that parts identified will 
meet NNSA's warhead life requirements.
    When NNSA decided to place more reliance on the use of COTS parts, 
our Management and Operating (M&O) contractors created a COTS parts use 
and qualification methodology. This methodology was based on best 
engineering practices of the time and was shown to be adequate in the 
past. The B61-12 LEP, due to the complexity of the warhead and its 
requirements, represented the first warhead modernization program 
requiring the use of a much larger number of COTS components. A key 
shortcoming in the original methodology was an underestimation of the 
potential lot-to-lot variations that could occur in COTS parts 
production.
    Workload increases require the identification of additional 
manufacturing/production floor space at a number of NNSA's M&O sites. 
NNSA is working with the Kansas City National Security Campus and 
Sandia National Laboratories to execute plans to identify and provide 
this space in time to support all of our currently ongoing warhead 
modernization programs.

                                  [all]
</pre></body></html>
